                                              BUREAU OF LABOR STATISTICS



Office of Inspector General—Office of Audit




                                              BLS CONTROLS OVER TRAINING DATA
                                              COLLECTION WORKERS NEED STRENGTHENING




                                                                  Date Issued:     March 30, 2012
                                                               Report Number:    17-12-004-11-001
U.S. Department of Labor                               March 2012
Office of Inspector General
Office of Audit                                        BLS CONTROLS OVER TRAINING DATA
                                                       COLLECTION WORKERS NEED
                                                       STRENGTHENING
BRIEFLY…
Highlights of Report Number 17-12-004-11-001, issued
to the Acting Commissioner for the Bureau of Labor     WHAT OIG FOUND
Statistics.
.                                                      While OFO was able to demonstrate it provided
                                                       entry-level classroom training at the national office,
WHY READ THE REPORT                                    OFO could not demonstrate that it provided all
                                                       required training to data collectors to ensure they
The Office of Field Operations (OFO) within the        were prepared to accurately collect data for use in
Bureau of Labor Statistics (BLS) is responsible for    BLS surveys. OFO did not maintain sufficient
collecting nationwide economic survey data for the     documentation to support that it had provided
following BLS divisions: Industrial Price Surveys      required refresher training to DIPS and DNCS data
(DIPS), National Compensation Surveys (DNCS),          collectors, and could not demonstrate that DCPS
Consumer Price Surveys (DCPS), and                     data collectors had been provided required
Cooperative Survey Programs. OFO is responsible        on-the-job (OJT) training in their respective
for designing training programs to provide data        regional offices.
collectors with the tools they need to collect data
for BLS Surveys.                                       OFO had training policies and procedures in place,
                                                       but they required maintenance of only OJT training
                                                       documentation. Furthermore, OFO did not fully
WHY OIG CONDUCTED THE AUDIT                            monitor its regional offices to ensure they
                                                       maintained adequate documentation to
The audit objective was to answer the following        substantiate that they had provided the required
question:                                              training. As a result, OFO could not be fully
                                                       assured that data collectors were adequately
Did OFO provide required training to data              trained and fully understood their role.
collectors to ensure they were prepared to
accurately collect data for use in BLS surveys?
                                                       WHAT OIG RECOMMENDED

READ THE FULL REPORT                                   We recommended that the Acting Commissioner
To view the report, including the scope,               for the Bureau of Labor Statistics ensure OFO
methodology, and full agency response, go to:          implements a common learning management
http://www.oig.dol.gov/public/reports/oa/2012/17-      system which will promote improved record
12-004-11-001.pdf                                      keeping for training, and improves the monitoring
                                                       of regional offices to enforce the maintenance of
                                                       OJT training records to fully support that they have
                                                       provided required training to entry-level data
                                                       collectors.

                                                       The Bureau of Labor Statistics agreed with our
                                                       recommendations to improve record keeping and
                                                       monitoring of its data collector training programs.
                                                       However, BLS disagreed with portions of the
                                                       findings in the report regarding records of training
                                                       completion.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         BLS Controls Over Data Collector Training
                                     Report No. 17-12-004-11-001
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective — Did OFO provide required training to data collectors to ensure that
they were prepared to accurately collect data for use in BLS surveys?.................. 3
         Documentation to fully support the training of data collectors was lacking. .......... 3

         Finding 1 — OFO could not demonstrate that advanced data collectors
                    attended and completed refresher training. ...................................... 3
         Finding 2 — OFO could not demonstrate the successful completion of
                    OJT training. ..................................................................................... 5

Recommendations ........................................................................................................ 6

Exhibit
         Exhibit DCPS Missing OJT Documentation ........................................................ 11

Appendices
         Appendix A Background ..................................................................................... 15
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 17
         Appendix C Acronyms and Abbreviations .......................................................... 21
         Appendix D BLS Response to Draft Report........................................................ 23
         Appendix E Acknowledgements ......................................................................... 27




                                                                             BLS Controls Over Data Collector Training
                                                                                         Report No. 17-12-004-11-001
               U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                           BLS Controls Over Data Collector Training
                                       Report No. 17-12-004-11-001
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




March 30, 2012

                        Assistant Inspector General’s Report



John M. Galvin
Acting Commissioner
Bureau of Labor Statistics
U.S. Department of Labor
Postal Square Building
2 Massachusetts Avenue, NW
Washington, DC 20212

The Office of Field Operations (OFO) within the Bureau of Labor Statistics (BLS) is
responsible for collecting nationwide economic survey data for the following BLS
divisions: Industrial Price Surveys (DIPS), National Compensation Surveys (DNCS),
Consumer Price Surveys (DCPS), and Cooperative Survey Programs (DCSP). OFO is
responsible for designing training programs to provide data collectors with the tools they
need to collect data for BLS Surveys. OFO consists of the national office and six
regional offices. The national office provides technical direction, classroom training for
entry-level data collectors, and refresher training for advanced data collectors. The
regional offices provide on-the-job training (OJT) to entry-level data collectors, certify
data collectors, and execute survey collection.

We conducted an audit of the BLS OFO to answer the following question:

      Did OFO provide required training to data collectors to ensure they were
      prepared to accurately collect data for use in BLS surveys?

We reviewed a statistical sample of training files in DIPS, DNCS, and DCPS for
entry-level data collectors for Fiscal Years (FY) 2007 through the first two quarters of
2011, and advanced data collectors for FYs 2010 through the first two quarters of 2011.

We interviewed OFO national and regional officials for each division to gain an
understanding of the survey data collector training requirements and the monitoring
controls. We identified BLS training requirements for entry-level and advanced data
collectors and reviewed classroom training records to determine adherence to these
requirements. We also reviewed OJT records for entry-level data collectors in four
regional offices (San Francisco, Philadelphia, Atlanta, and Chicago) to confirm the
employees’ successful training completion and certification.



                                                          BLS Controls Over Data Collector Training
                                             1                        Report No. 17-12-004-11-001
                                           U.S. Department of Labor – Office of Inspector General


We conducted this performance audit in accordance with generally accepted
government auditing standards (GAGAS) for performance audits. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on the audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on the audit objective. Our objective, scope,
methodology, and criteria are detailed in Appendix B.


RESULTS IN BRIEF

OFO could not demonstrate that it provided all required training to data collectors to
ensure they were prepared to accurately collect data for use in BLS surveys. OFO was
able to demonstrate it provided entry-level classroom training at the national office.
However, OFO did not maintain sufficient documentation to support that it had provided
required refresher training to DIPS and DNCS data collectors, and could not
demonstrate that DCPS data collectors had been provided required OJT training in their
respective regional offices. While OFO had training policies and procedures in place,
they only required that documentation for OJT training be maintained. Furthermore,
OFO did not fully monitor its regional offices to ensure they maintained adequate
documentation to substantiate that they had provided the required training. As a result,
OFO could not be fully assured that data collectors were adequately trained and fully
understood their role.

We recommended that the Acting Commissioner for BLS ensure OFO implements a
common learning management system which will promote improved record keeping for
training; and improves the monitoring of regional offices to enforce the maintenance of
OJT training records to fully support that they have provided required training to
entry-level data collectors.

In response to our draft report BLS stated it supported the recommendations in the
report, but disagreed with portions of the individual findings. BLS considered OFO to
have submitted reasonable documentation of training completion for advanced data
collection staff. BLS also expressed concern over the inclusion of data collectors who
took advanced training and the incidence rate of DCPS OJT files that were cited as
exceptions. BLS’s entire response is included in Appendix D.

We disagree that the documentation provided by OFO was reasonable to document the
attendance and completion of training for advanced data collection staff. OFO could not
substantiate that the scheduled attendees listed actually attended and completed the
training. OFO officials said supervisors ensured that listed attendees completed the
training. However, we did not find sufficient documentation to demonstrate that this had
occurred.

We also disagree that the inclusion of data collectors who took advanced training was
incorrect. The BLS training curriculum includes advanced training on complex collection


                                                       BLS Controls Over Data Collector Training
                                            2                      Report No. 17-12-004-11-001
                                                      U.S. Department of Labor – Office of Inspector General


procedures, workshops, methodological changes, or informational sessions, as a part of
refresher training. As advanced training is a component of refresher training, it was
appropriately included.

In addition, the DCPS OJT exceptions were based on our sampling methodology, which
was based on reviewing individual data collectors’ training files, not instances of
documentation. Each survey data collector is required to demonstrate the successful
completion of OJT through the documentation of interim and final certification to
become certified to collect data for use in BLS surveys.


RESULTS AND FINDINGS

Objective — Did OFO provide required training to data collectors to ensure that
            they were prepared to accurately collect data for use in BLS
            surveys?

       Documentation to fully support the training of data collectors was lacking.

OFO could not demonstrate that it provided all required training to data collectors to
ensure they were prepared to accurately collect data for use in BLS surveys. OFO was
able to demonstrate that it provided entry-level classroom training at the national office.
However, it did not maintain sufficient documentation to support that it had provided
required refresher training to DIPS and DNCS data collectors. Furthermore, when
entry-level data collectors went to their regional offices after completing initial training at
the national office, OFO was unable to demonstrate that the regional offices had
provided DCPS data collectors required OJT training.

Finding 1 — OFO could not demonstrate that advanced data collectors attended
            and completed refresher training.

Our review of 143 files for training provided at the national office to entry-level data
collectors showed adequate support that OFO had provided the required training.
However, this was not the case when OFO offered refresher training 1 to advanced data
collectors. We reviewed 162 2 training files for advanced data collectors and found that
BLS could not demonstrate that the training was provided to any of the 102 3 DIPS or
DNCS data collectors reviewed. Conversely, in the case of DCPS, documentation
supported that training was provided to 57 of the 60 DCPS advanced data collectors we
reviewed.


1
  Per the BLS OFO Training Curriculums, dated May 2, 2011, the nature of training conducted during a refresher
course varies. It may be advanced training on complex collection procedures, workshops designed to get input on
proposed system development or methodological changes, or informational sessions on new features of the
programs.
2
  162 files = 42 DIPS, 60 DNCS, and 60 DCPS
3
  102 files = 42 DIPS (21 FY 2010 Refresher Training files and 21 FY 2011 Advanced Training files), 60 DNCS
(30 FY 2010 Refresher Training files and 30 FY 2011 Refresher Training files)

                                                                    BLS Controls Over Data Collector Training
                                                        3                       Report No. 17-12-004-11-001
                                           U.S. Department of Labor – Office of Inspector General


Refresher training is conducted for DIPS, DNCS and DCPS data collectors. However,
training differs for each division, as follows:

      DIPS refresher training may be advanced training on complex collection
      procedures, workshops designed to get input on proposed system development
      or methodological changes, or informational sessions on new features of the
      programs.

      DNCS refresher training is used to prepare staff to handle upcoming initiatives
      and industries (e.g., Governments, Domestic Partner Emerging Benefits, Benefit
      Documents) before collection begins.

      DCPS refresher training is e-learning modules designed to ensure that data
      collection skills are maintained through their careers.

DIPS and DNCS generally provide a three-day, in-person refresher training course.
However, when budget constraints create training limitations, they are able to provide
structured refresher training in a webinar format in their respective regional offices.
Alternatively, DCPS generally provides refresher training to its advanced data collectors
using an on-line course.

OFO officials stated that they maintained documentation for attendance at required
refresher training for DIPS and DNCS advanced data collectors using lists of attendees
and supervisor observations. However, OFO could not substantiate that the scheduled
attendees listed actually attended and completed the training. OFO officials said
supervisors ensured that listed attendees completed the training. However, we did not
find sufficient documentation to demonstrate that this had occurred. As a result, OFO
could not provide assurance that DIPS and DNCS advanced data collectors had
attended and completed required refresher training.

Conversely, because DCPS provided refresher training using an on-line format, the
electronic Learning Management System automatically recorded the data collectors’
training activity, including all attempts and completions.

OFO did not have established policies and procedures for maintaining documentation to
support that advanced data collectors had completed required refresher training. OFO
officials acknowledged that their documentation could be improved with additional
registration steps, such as participant sign-in sheets and/or the submission of
supervisor documentation.

Standards of Internal Control in the Federal Government issued by the Government
Accountability Office states:

      Control activities occur at all levels and functions of the entity. They
      include a wide range of diverse activities such as approvals,
      authorizations, verifications, reconciliations, performance reviews,


                                                       BLS Controls Over Data Collector Training
                                             4                     Report No. 17-12-004-11-001
                                              U.S. Department of Labor – Office of Inspector General


          maintenance of security, and the creation and maintenance of related
          records which provide evidence of execution of these activities as well as
          appropriate documentation. Control activities may be applied in a
          computerized information system environment or through manual
          processes.

Without maintaining documentation of the successful completion of refresher training,
OFO cannot be fully assured that data collectors are adequately trained on changes to
complex collection procedures and updates to best practices and collection aids.


Finding 2 — OFO could not demonstrate the successful completion of OJT
            training.

Our review of 93 4 files for entry-level OJT training at four regional offices found that
discrepancies in record keeping were tied organizationally, not regionally. For example,
we noted no exceptions in the 28 DIPS and DNCS files reviewed, but identified
exceptions for 41 of 65 files reviewed (63 percent) in DCPS (see Exhibit). Specifically,
we found the following at each of the four DCPS regional offices:

      •   San Francisco – 14 of 24 files lacked one or more required documents. OJT
          checklists were missing in 5 files and not signed in 1 file; OJT interim
          certifications were missing in 4 files and not signed in 5 files; and OJT final
          certifications were missing from 3 files and not signed in 3 files.

      •   Philadelphia – 6 of 13 files lacked one or more required documents. OJT
          checklists were missing in 4 files; OJT interim certifications were not signed in 3
          files; and OJT final certifications were not signed in 3 files.

      •   Chicago – 12 of 16 files lacked one or more required documents. OJT checklists
          were missing in 5 files and not signed in 4 files; OJT interim certifications were
          missing in 5 files and not signed in 2 files; and OJT final certifications were
          missing from 5 files and not signed in 2 files.

      •   Atlanta – 9 of 12 files lacked one or more required documents. OJT checklists
          were missing in 8 files; OJT interim certifications were missing in 2 files; and OJT
          final certifications were missing in 3 files.

OFO training policies and procedures required regional offices to maintain
documentation that supports the successful completion of OJT training.

According to the Consumer Price Index (CPI) Data Collection Quality Program (DCQP)
Manual:


4
    93 files = 19 DIPS, 9 DNCS, and 65 DCPS

                                                          BLS Controls Over Data Collector Training
                                                5                     Report No. 17-12-004-11-001
                                                         U.S. Department of Labor – Office of Inspector General


         The completion of OJT requirements is documented on the OJT checklist
         used to authorize the employee for independent collection. The BLS
         supervisor and data collector sign and date the form in the appropriate
         signature field. Both parties must agree that the employee has been
         sufficiently trained on the OJT checklist skills to move to independent
         collection. Documentation is handled either by a supervisor or by a Field
         Economist mentor in consultation with a supervisor.

         Interim certification indicates that the trainee is capable of collecting the
         survey without constant review. Interim certification is earned after an
         observation that results in meeting the DCQP requirements. Once met,
         the employee and supervisor signs and dates the observation summary
         form in the appropriate areas. After the successful completion of interim
         observations, a set of re-interviews are completed. If all of these activities
         indicate the employee’s work meets the DCQP requirements, final
         certification is earned. Final certification observations are conducted
         during the second full independent collection month. They must be
         conducted by a supervisor. The supervisor and employee sign and date
         the re-interview summary form in the appropriate areas after successful
         completion.

Although policies and procedures for documenting OJT training were in place, OFO did
not fully monitor the four regional offices to ensure they maintained adequate
documentation to substantiate that data collectors had been provided the required
training. As a result, OFO could not be fully assured that data collectors were
adequately trained and fully understood their role. 5


RECOMMENDATIONS

We recommend that the Acting Commissioner for BLS:

1. Ensure that OFO implements a common learning management system, which will
   promote improved record keeping for training.

2. Ensure that OFO improves the monitoring of regional offices to enforce the
   maintenance of OJT training records to fully support that they have provided required
   training to entry-level data collectors.




5
 Our audit results are based on only the samples reviewed. We did not project those results to all training files in the
universe because of the high rate of error found in our sample.

                                                                       BLS Controls Over Data Collector Training
                                                           6                       Report No. 17-12-004-11-001
                                        U.S. Department of Labor – Office of Inspector General


We appreciate the cooperation and courtesies that BLS personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                    BLS Controls Over Data Collector Training
                                         7                      Report No. 17-12-004-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         BLS Controls Over Data Collector Training
              8                      Report No. 17-12-004-11-001
          U.S. Department of Labor – Office of Inspector General




Exhibit




                      BLS Controls Over Data Collector Training
           9                      Report No. 17-12-004-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         BLS Controls Over Data Collector Training
              10                     Report No. 17-12-004-11-001
                                              U.S. Department of Labor – Office of Inspector General


                                                                                           Exhibit
DCPS Missing OJT Documentation

 No.       OJT         Interim          Final           OJT           Interim           Final
         Checklist   Certification   Certification    Checklist     Certification    Certification
        not Signed   not Signed      not Signed       Missing         Missing          Missing
 SF1         √             √                                                               √
 SF2                                                                     √
 SF3                                                                     √
 SF4                                                      √
 SF5                      √
 SF6                                                      √
 SF7                                                                     √
 SF8                      √               √
 SF9                      √               √
 SF10                                                     √
 SF11                                                                                     √
 SF12                     √               √
 SF13                                                     √
 SF14                                                     √              √                √
TOTAL       1             5               3               5              4                3
 PH1                      √               √               √
 PH2                                                      √
 PH3                      √               √
 PH4                      √               √
 PH5                                                      √
 PH6                                                      √
TOTAL       0             3               3               4              0                0
 CH1                      √               √
 CH2                                                      √              √                √
 CH3                                                      √
 CH4                      √               √               √
 CH5        √                                                            √                √
 CH6                                                      √
 CH7        √
 CH8                                                      √              √                √
 CH9        √
 CH10                                                                    √                √
 CH11                                                                    √                √
 CH12       √
TOTAL       4             2               2               5              5                5
 ATL1                                                     √
 ATL2                                                     √              √                √
 ATL3                                                     √
 ATL4                                                     √
 ATL5                                                     √              √                √
 ATL6                                                     √
 ATL7                                                     √
 ATL8                                                     √
 ATL9                                                                                     √
TOTAL       0             0               0               8              2                3




                                                          BLS Controls Over Data Collector Training
                                               11                     Report No. 17-12-004-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         BLS Controls Over Data Collector Training
              12                     Report No. 17-12-004-11-001
             U.S. Department of Labor – Office of Inspector General




Appendices




                         BLS Controls Over Data Collector Training
              13                     Report No. 17-12-004-11-001
           U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       BLS Controls Over Data Collector Training
            14                     Report No. 17-12-004-11-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

BLS is responsible for the production of some of the most sensitive and important
economic data. BLS is an independent national statistical agency that collects,
processes, analyzes, and disseminates essential statistical data to the American public,
the U.S. Congress, other federal agencies, state and local governments, and
businesses. BLS also serves as a statistical resource to DOL. BLS data must satisfy a
number of criteria, including relevance to current social and economic issues, timeliness
in reflecting today’s rapidly changing economic conditions, accuracy and consistently
high statistical quality, and impartiality in both subject matter and presentation. It
provides statistics that support the formulation of economic and social policy, decisions
in the business and labor communities, legislative and other programs affecting labor,
and research on labor market issues. These policies and decisions affect virtually all
Americans.

OFO offers training for the following BLS divisions: DIPS, DCPS, DNCS, and DCSP.
OFO’s rigorous and structured program-related training, and mentor and certification
programs are designed to provide regional data collection staff with the tools they need
to collect high-quality data for BLS surveys.

OFO consists of the national office and six regional offices. The OFO national office
provides overall operations planning and allocates workloads and resources to the OFO
regional offices.

BLS national office training courses must be successfully completed before entry-level
data collectors are permitted to start independent data collection in the region to which
they are assigned. The classes completed in the national office are designed according
to the program assigned. OJT training, certification, and structured mentor training
regimens are conducted in the regions and are designed to build upon the formal
training completed in the national office for entry-level data collectors. BLS courses for
advanced employees are called refresher courses, which are designed to update
program data collection requirements, specific procedural, industry, and/or refresh or
update their certification and skill-levels needed to perform data collections for the
surveys.

DIPS develops and monitors training for employees who collect data used for the
Producer Price Index (PPI) and the International Price Program (IPP). The training
reflects the fact that regional Industrial Prices Field Economists are responsible for
collecting initiation data for both the PPI and IPP surveys.

DNCS develops and monitors training for staff that collects data that is used for the
National Compensation Surveys, which includes Employment Cost Index, Employer
Costs for Employee Compensation and Employee Benefit Survey. The training includes
on-going needs assessments and continual evaluation of offered courses, design of
new course curriculum and updates of current courses to reflect changing technical


                                                       BLS Controls Over Data Collector Training
                                            15                     Report No. 17-12-004-11-001
                                           U.S. Department of Labor – Office of Inspector General


procedures and innovation in content delivery to reflect just-in time distance education.
DNCS offers a program of classroom and distance education to support on-the-job
training and certification for Field Economists. The technical training courses involve
procedures, collection methodologies, and techniques for initiating new companies into
the DNCS Survey and updating them quarterly.

DCPS offers training to support data collection and quality activities for the Commodity
and Services and Housing Surveys.

DCSP provides training for OFO and state staff on the seven Labor Market Information
and Occupational Safety and Health Statistics programs. Trainings are typically
program-specific and are delivered at the introductory, intermediate, and advanced
levels. DCSP utilizes several modes for delivering training, including classroom, WebEx,
recorded WebEx (on demand training), and computer-based training.




                                                       BLS Controls Over Data Collector Training
                                            16                     Report No. 17-12-004-11-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Did OFO provide required training to data collectors to ensure they were prepared to
accurately collect data for use in BLS surveys?

Scope

We reviewed a statistical sample of training files in DIPS, DNCS, and DCPS for BLS
entry-level data collectors for FYs 2007 through the first two quarters of 2011, and
advanced data collectors for FYs 2010 through the first two quarters of 2011. We did
not include DCSP in our audit sampling because the division is involved with
cooperative agreements with the States, which is outside our audit scope.

We conducted fieldwork at the BLS national office in Washington, D.C., and BLS
regional offices in San Francisco, Philadelphia, Atlanta and Chicago.

We conducted this audit in accordance with GAGAS for performance audits. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Methodology

We interviewed BLS-OFO national and regional officials for DIPS, DNCS and DCPS to
gain an understanding of their survey data collector training requirements and the
monitoring controls they used. We reviewed records for entry-level classroom, and
refresher training maintained in the BLS national office to confirm data collectors’
successful training completion. We also reviewed OJT records for entry-level survey
collectors maintained by OFO regional offices to confirm successful training completion
and certification.

OFO provided us with a list of data collectors from DIPS, DNCS, and DCPS for FYs
2007 through the first two quarters of 2011. We performed a data reliability assessment
to ensure we had complete and accurate data. To determine whether the data was
reliable to select our sample, we compared the universe of data collectors provided by
OFO to the universe provided by BLS’s personnel office. We also reviewed the
computer program used to extract the list of data collectors that we used to select our
sample to ensure its accuracy. We concluded the data to be sufficiently reliable for our
audit purposes.

Based on a listing provided by the BLS Office of Administration, the audit universe
consisted of 2,616 DCPS data collectors, 468 DIPS data collectors and 1,150 DNCS


                                                      BLS Controls Over Data Collector Training
                                           17                     Report No. 17-12-004-11-001
                                            U.S. Department of Labor – Office of Inspector General


data collectors. Based on OFO data collector training guidance and discussions with
OFO, we classified data collectors as either entry-level or advanced (see Table1).

                             Table 1 – Data Collector Universe
                         DCPS            DIPS               DNCS                  Total
    Entry -Level          330              35                  19                  384
    Advanced             2286             433                1131                 3850
    Total                2616             468                1150                 4234




From this universe, we reviewed a statistical sample of entry-level and advanced data
collectors from each of the three divisions (see Table 2 and Table 3).

                      Table 2 – Entry Level Data Collector Audit Sample
      BLS Region         DCPS                 DIPS               DNCS             Total
    Boston                  9                   3                  6                18
    Philadelphia           13                   1                  1                15
    Atlanta                12                   0                   5               17
    Chicago                16                  13                  1                30
    Dallas                 19                   1                  1                21
    San Francisco          24                   5                  2                31
    Headquarters            3                   6                  2               11
    Total                  96                  29                  18              143




                       Table 3 – Advanced Data Collector Audit Sample
      BLS Region         DCPS               DIPS                DNCS              Total
    Boston                  9                 9                   7                25
    Philadelphia            9                 6                  12                27
    Atlanta                 2                 8                   6                16
    Chicago                12                 6                   5                23
    Dallas                  8                 2                  14                24
    San Francisco          19                 9                  11                39
    Headquarters            1                 2                   5                 8
    Total                  60                 42                 60                162



Training records for entry-level classroom training and refresher training was maintained
at the BLS national office. We reviewed all 143 entry-level data collectors classroom
training records from the six BLS regions and the national office. In addition, we
reviewed all 162 refresher data collector records from the six BLS regions and the
national office. For OJT training for entry-level data collectors, we reviewed 15 records
in the BLS Philadelphia regional office, 31 records in the BLS San Francisco regional
office, 30 records in the BLS Chicago regional office and 17 records in the BLS Atlanta
regional office. Based on the number of exceptions we identified at the first four regional
offices we visited, we did not perform testing at the remaining two BLS regional offices.


                                                        BLS Controls Over Data Collector Training
                                             18                     Report No. 17-12-004-11-001
                                           U.S. Department of Labor – Office of Inspector General


While we reviewed a statistical sample of entry-level and advanced data collectors from
each of the three divisions at the four regional offices, we did not go to the last two
regions. Therefore we did not project the results.

We evaluated internal controls used by BLS to obtain reasonable assurance that OFO
provide required training to data collectors to ensure they were prepared to accurately
collect data for use in BLS surveys. Our consideration of internal controls related to the
training provided would not necessarily disclose all matters that might be reportable
conditions. Because of inherent limitations in internal controls, noncompliance may
nevertheless occur and not be detected.

Criteria

   •   BLS’s OFO Training Curriculums

   •   BLS – CPI Data Collection Quality Control Manual

   •   BLS – IPP Quality Assurance Manual

   •   BLS – PPI Quality Assurance Manual

   •   BLS – NCS OJT Guide

   •   BLS – NCS Skill Development Guide

   •   Government Accountability Office – Standards of Internal Control in the Federal
       Government




                                                       BLS Controls Over Data Collector Training
                                            19                     Report No. 17-12-004-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         BLS Controls Over Data Collector Training
              20                     Report No. 17-12-004-11-001
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix C
Acronyms and Abbreviations


BLS           Bureau of Labor Statistics

CPI           Consumer Price Index

DCQP          Data Collection Quality Program

DCPS          Division of Consumer Price Surveys

DCSP          Division of Cooperative Survey Programs

DIPS          Division of Industrial Price Surveys

DNCS          Division of National Compensation Surveys

DOL           Department of Labor

FY            Fiscal Year

GAGAS         Generally Accepted Government Auditing Standards

IPP           International Price Program

OFO           Office of Field Operations

OIG           Office of Inspector General

OJT           On-the-Job Training

PPI           Producer Price Index




                                                     BLS Controls Over Data Collector Training
                                           21                    Report No. 17-12-004-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         BLS Controls Over Data Collector Training
              22                     Report No. 17-12-004-11-001
                                                  U.S. Department of Labor – Office of Inspector General


                                                                                          Appendix D
BLS Response to Draft Report




*The report number cited in the draft report— to which BLS referenced in its response — is incorrect. The
correct report number is 17-12-004-11-001.



                                                               BLS Controls Over Data Collector Training
                                                   23                      Report No. 17-12-004-11-001
U.S. Department of Labor – Office of Inspector General




            BLS Controls Over Data Collector Training
 24                     Report No. 17-12-004-11-001
U.S. Department of Labor – Office of Inspector General




            BLS Controls Over Data Collector Training
 25                     Report No. 17-12-004-11-001
U.S. Department of Labor – Office of Inspector General




            BLS Controls Over Data Collector Training
 26                     Report No. 17-12-004-11-001
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix E
Acknowledgements

Key contributors to this report were Tracy Katz, Zaunder Saucer, Grover Fowler, Tinuke
Aruwayo, Deborah Jarmon, Lawrence Alli, Ajit Buttar and Christine Allen.




                                                     BLS Controls Over Data Collector Training
                                          27                     Report No. 17-12-004-11-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
